<html>
<title> - DEMANDING ACCOUNTABILITY AT THE CORPORATION FOR NATIONAL COMMUNITY SERVICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                    DEMANDING ACCOUNTABILITY AT THE
                        CORPORATION FOR NATIONAL
                           COMMUNITY SERVICE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HIGHER EDUCATION
                         AND WORKFORCE TRAINING

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 24, 2016

                               __________

                           Serial No. 114-49

                               __________

  Printed for the use of the Committee on Education and the Workforce



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-236 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001           
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

David P. Roe, Tennessee              Ruben Hinojosa, Texas
Matt Salmon, Arizona                   Ranking Minority Member
Brett Guthrie, Kentucky              Hakeem S. Jeffries, New York
Lou Barletta, Pennsylvania           Alma S. Adams, North Carolina
Joseph J. Heck, Nevada               Mark DeSaulnier, California
Luke Messer, Indiana                 Susan A. Davis, California
Bradley Byrne, Alabama               Raul M. Grijalva, Arizona
Carlos Curbelo, Florida              Joe Courtney, Connecticut
Elise Stefanik, New York             Jared Polis, Colorado
Rick Allen, Georgia

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 24, 2016.....................................     1

Statement of Members:
    Adams, Hon. Alma S., a Representative in Congress from the 
      state of North Carolina....................................     4
        Prepared statement of....................................     5
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training...........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Cohn, Mr. Joseph, Legislative and Policy Director, Foundation 
      for Individual Rights in Education, Philadelphia, PA.......
        Prepared statement of....................................
    Maatz, Ms. Lisa M., Vice President for Government Relations, 
      American Association of University Women, Washington, DC...
        Prepared statement of....................................
    Jeffrey, Ms. Deborah, Inspector General, Corporation for 
      National and Community Service.............................    19
        Prepared statement of....................................    21
    Spencer, Ms. Wendy, Chief Executive Officer, Corporation for 
      National and Community Service.............................     7
        Prepared statement of....................................     9
Additional Submissions:
    Ms. Adams:
        Letter dated May 23, 2016, from The Corps Network........    48
        Prepared statement of....................................    50
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        Hartford Courant article: Veteran's coffeehouse opens in 
          Danielson..............................................    53
    Chairwoman Foxx, questions submitted for the record to:
        Ms. Jeffrey..............................................   136
        Ms. Spencer..............................................   139
    Response to questions submitted:
        Ms. Jeffrey..............................................   143
        Ms. Spencer..............................................   161
        Corporation for National and Community ServiceGrant 
          Competitions Results - Fiscal Years 2010-2016..........   170
    Scott, Hon. Robert C. ``Bobby'', a Representative in Congress 
      from the State of Virginia:
        May 2008 Executive Summary Still Serving: Measuring the 
          Eight-Year Impact of AmeriCorps on Alumni..............    57
        May 2008 Still Serving:Measuring the Eight-Year Impact of 
          AmeriCorps on Alumni...................................    70
        AmeriCorps Alumni Outcomes Summary Report Executive 
          Summary October 2015...................................   126
        AmeriCorps Alumni Outcomes Summary Report October 2015...   134

 
        DEMANDING ACCOUNTABILITY AT THE CORPORATION FOR NATIONAL
                           COMMUNITY SERVICE

                              ----------                              


                         Tuesday, May 24, 2016

                        House of Representatives

               Committee on Education and the Workforce,

        Subcommittee on Higher Education and Workforce Training

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Foxx, Roe, Guthrie, Curbelo, 
Stefanik, Adams, DeSaulnier, Davis, Courtney, and Polis.
    Also Present: Representatives Kline, and Scott.
    Staff Present: Janelle Belland, Coalitions and Members 
Services Coordinator; James Forester, Professional Staff 
Member; Tyler Hernandez, Deputy Communications Director; Amy 
Raaf Jones, Director of Education and Human Resources Policy; 
Nancy Locke, Chief Clerk; Dominique McKay, Deputy Press 
Secretary; Krisann Pearce, General Counsel; Alex Ricci, 
Legislative Assistant; Mandy Schaumburg, Education Deputy 
Director and Senior Counsel; Alissa Strawcutter, Deputy Clerk; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Pierce Blue, Minority Labor Detailee; Mishawn Freeman, Minority 
Staff Assistant; Denise Forte, Minority Staff Director; Carolyn 
Hughes, Minority Senior Labor Policy Advisor; Brian Kennedy, 
Minority General Counsel; Veronique Pluviose, Minority Civil 
Rights Counsel; and Rayna Reid, Minority Education Policy 
Counsel.
    Chairwoman Foxx. The quorum being present, the Subcommittee 
on Higher Education and Workforce Training will come to order.
    Good morning, everyone, and welcome to today's hearing. Ms. 
Spencer and Ms. Jeffrey, I would like to thank both of you for 
joining us to address the most recent misuse of taxpayer funds 
in the AmeriCorps program, or perhaps more accurately, the most 
recent misuse of taxpayer funds that we know of.
    Let me start by providing a little more context for those 
who are not familiar with this case. The Corporation for 
National Community Service, or CNCS, is in charge of overseeing 
the community service activities of more than eight different 
Federal programs and initiatives. For the current fiscal year, 
CNCS received more than $1 billion to carry out these programs, 
one of which is the AmeriCorps program. As the head of the 
corporation, Ms. Spencer, you have a responsibility to ensure 
the Federal funds you receive, which are no small sum, are 
being spent in full compliance with Federal law. That includes 
policies that prohibit the use of taxpayer dollars to fund 
abortion activities.
    We are here today because the office of your inspector 
general has reported one AmeriCorps grantee, the National 
Association of Community Health Centers, violated the law. As 
of today this organization is still receiving taxpayer funds. 
More specifically, this organization, one of the largest to 
participate in the AmeriCorps program, allowed AmeriCorps 
members to engage in illegal activity by providing support 
services during abortion procedures. Regardless of your 
position on the issue of abortion, the law is the law and it 
must be followed.
    The most recent law reauthorizing CNCS programs explicitly 
prohibits the use of AmeriCorps resources to provide abortion 
services or referrals for receipt of such services, end quote. 
For two years these illegal activities were allowed to continue 
completely undetected by the very agency meant to oversee these 
programs in the agency you are in charge of. The investigation 
that began when you finally did become aware of what had 
happened confirmed that taxpayer funds were used to support 
unlawful activities. But it also revealed much more.
    The inspector general also found that several AmeriCorps 
members were regularly tasked with conducting work performed by 
employees of the centers they supported. This activity is also 
against the law, but the grantee failed to stop or even report 
it. AmeriCorps members technically are to serve strictly in 
volunteer roles and should never perform the same task as 
employees. But again, that is not the end of it.
    It was also discovered that the grantee's senior management 
chose not to inform the corporation of instances of waste, 
fraud, and abuse, choosing instead to undermine transparency 
and avoid reporting information that would make them look bad. 
This disturbing list of unlawful and dishonest practices really 
makes you wonder, how on Earth was this allowed to happen? How 
were these activities allowed to go on for so long? And why is 
the National Association of Community Health Centers still a 
grantee?
    When the committee learned about this unlawful activity 
last month, Chairman Kline immediately called on the 
corporation to cease all future funding of this organization. 
On behalf of the committee, I am renewing this call today, Ms. 
Spencer. I sincerely hope you will be able to provide us with a 
plan of action and describe steps you are taking to address 
this situation.
    Revoking this grant would be a good start, but it is also 
important to recognize that this is not an isolated incident. 
In fact, I chaired a hearing back in 2011 examining reports 
that AmeriCorps members had engaged in other unlawful activity. 
In response to questioning, the head of CNCS assured us the 
corporation would be diligent in educating grantees, ``helping 
them to understand the rules,'' and would require, ``all 
AmeriCorps grantees to annually assure compliance with 
regulations on prohibited activities.'' It seems that neither 
strategy has solved the problem.
    That's why today I am also calling on the Corporation to 
conduct a comprehensive review to ensure all other grantees in 
the program are complying with the law. Enough is enough. The 
Corporation needs to be held accountable for the way it spends 
taxpayer dollars and that's why we are here today.
    We have many questions to answer and much to discuss.
    So I now recognize Ranking Member Adams for her opening 
remarks.
    [The information follows:]

 Prepared Statement of Hon. Virginia Foxx, Chairwoman, Subcommittee on 
                Higher Education and Workforce Training

    The Corporation for National and Community Service, or CNCS, is in 
charge of overseeing the community service activities of more than 
eight different federal programs and initiatives. For the current 
fiscal year, CNCS received more than $1 billion to carry out these 
programs, one of which is the AmeriCorps program.
    As the head of the corporation, Ms. Spencer, you have a 
responsibility to ensure the federal funds you receive--which is no 
small sum--are being spent in full compliance with federal law. That 
includes policies that prohibit the use of taxpayer dollars to fund 
abortion activities. We're here today because the office of your 
Inspector General has reported one AmeriCorps grantee, the National 
Association of Community Health Centers, violated the law. As of today, 
this organization is still receiving taxpayer funds.
    More specifically, this organization--one of the largest to 
participate in the AmeriCorps program--allowed AmeriCorps members to 
engage in illegal activity by providing support services during 
abortion procedures. Regardless of your position on the issue of 
abortion, the law is the law, and it must be followed. The most recent 
law reauthorizing CNCS programs explicitly prohibits the use of 
AmeriCorps resources to ``provide abortion services or referrals for 
receipt of such services.''
    For two years, these illegal activities were allowed to continue, 
completely undetected by the very agency meant to oversee these 
programs. The investigation that began when you finally did become 
aware of what had happened confirmed that taxpayer funds were used to 
support unlawful activities, but it also revealed much more.
    The Inspector General also found that several AmeriCorps members 
were regularly tasked with conducting work performed by employees of 
the centers they supported. This activity is also against the law, but 
the grantee failed to stop or even report it. AmeriCorps members are to 
serve strictly in volunteer roles and should never preform the same 
tasks as employees. But, again, that's not the end of it.
    It was also discovered that the grantee's senior management chose 
not to inform the corporation of instances of waste, fraud, and abuse, 
choosing instead to undermine transparency and avoid reporting 
information that would make them look bad.
    This disturbing list of unlawful and dishonest practices really 
makes you wonder: How on earth was this allowed to happen? How were 
these activities allowed to go on for so long? And, why is the National 
Association of Community Health Centers still a grantee?
    When the committee learned about this unlawful activity last month, 
Chairman Kline immediately called on the corporation to cease all 
future funding of this organization. On behalf of the committee, I am 
renewing that call today, Ms. Spencer. I sincerely hope that you will 
be able to provide us with a plan of action and describe steps you are 
taking to address this situation.
    Revoking this grant would be a good start, but it's also important 
to recognize that this is not an isolated incident. In fact, I chaired 
a hearing back in 2011 examining reports that AmeriCorps members had 
engaged in other unlawful activity. In response to questioning, the 
head of CNCS assured us the corporation would be diligent in educating 
grantees, ``helping them to understand the rules,'' and would require 
``all AmeriCorps grantees to annually assure compliance with 
regulations on prohibited activities.'' It seems that neither strategy 
has solved the problem.
    That's why today I am also calling on the corporation to conduct a 
comprehensive review to ensure all other grantees in the program are 
complying with the law. Enough is enough. The corporation needs to be 
held accountable for the way it spends taxpayer dollars, and that's why 
we are here today.
                                 ______
                                 
    Ms. Adams. Thank you, Madam Chair, and thank you both for 
being here today. I would also like to welcome Wendy Spencer, 
chief executive officer for the Corporation for National and 
Community Service, and Deborah Jeffrey, the inspector general. 
And I want to thank you both for joining us today.
    We are here today to discuss the critical role that the 
Corporation for National and Community Service, or CNCS, has in 
encouraging volunteerism and civic engagement. Service is the 
rent that we pay for living on this Earth and it is also the 
foundation of our democracy, and its value to our society 
cannot be overstated.
    Since its founding, CNCS has engaged millions of volunteers 
in national and community service. These volunteers have served 
as teachers and tutors and mentors and counselors working with 
disadvantaged students in high-need schools. In cases of 
natural disaster, volunteers have helped local communities 
prepare for, mitigate, respond, and recover from forest fires 
and floods and hurricanes and tornadoes. Volunteers have 
assisted our Nation's veterans in adjusting to civilian life, 
constructed and rebuilt homes for thousands of families, and 
help our Nation's seniors in maintaining the highest degree 
possible of independent living and much more. All of us ought 
to be engaged in national service. So thank you, CNCS, for 
being a leader on this issue.
    You see, my upbringing taught me that we won't be able to 
celebrate community, nor can we build community if we are not 
inclusive, if we do not care for the least of these. So as we 
engage ourselves in trying to improve our community for the 
better, we must do so remembering that we are thy brother's and 
thy sister's keepers, and as such, inextricably tied to one 
another. But in order for the community to be engaged, the 
community must be involved. And that is exactly what CNCS does. 
CNCS and the community volunteers that they coordinate enable 
tens of thousands of nonprofit organizations, faith-based 
groups and schools and municipal agencies to solve tough 
problems and meet local needs. CNCS also serves and builds and 
makes an impact that change lives and communities.
    Martin Luther King once said that the ultimate measure of a 
man is not where he stands in moments of comfort and 
convenience, but where he stands in times of challenge and 
controversy. So during the times of challenge, CNCS is there.
    During the Flint crisis, CNCS deployed an AmeriCorps team 
to Flint to support State and local efforts to protect the 
public health of residents facing challenges from increased 
lead levels in the Flint water supply. And when tornadoes 
wreaked havoc in Oklahoma, CNCS deployed an AmeriCorps team to 
that region.
    So needless to say, I could praise the instances of these 
volunteers helping our Nation's communities in times of need. 
But I will stop here and say that it is without a doubt that 
CNCS has improved the quality of life in my home State of North 
Carolina and communities around this great Nation.
    After I was sworn into Congress, I made it a priority to 
join the Committee on Education and the Workforce and I am glad 
I am here. And I fought to do that intentionally because I 
understand the significance of community engagement. And as a 
member of the Committee, I feel responsible for ensuring that 
the Corporation has strong management, monitoring, and 
oversight as well as the resources necessary to effectively 
administer its programs and carry out its mission. And while 
there is always room for improvement, I strongly believe that 
CNCS is taking this responsibility serious.
    So with regard to the recent incidences that occurred with 
the AmeriCorps program, CNCS discovered and resolved these 
issues with deliberate action. And I can't help but think that 
if this were anything other than services related to women's 
health, that the Corporation would not be called in front of us 
here today.
    So as we proceed with today's hearing, I want to strongly 
encourage my colleagues on this committee to focus on the vital 
importance of service to our Nation. And while we must maintain 
vigorous oversight and enforcement, we must also remember how 
CNCS engages over a million volunteers, which is something that 
benefits local communities all across America on both sides of 
the aisle. So I look forward to hearing more about how we can 
improve and strengthen National Service programs that are so 
important to our Nation's success. Thank you, Madam Chair.
    [The information follows:]

Prepared Statement of Hon. Alma S. Adams, a Representative in Congress 
                    from the state of North Carolina

    Good morning and thank you, Chairwoman Foxx. I would also like to 
welcome Wendy Spencer, chief executive officer (CEO) for the 
Corporation for National and Community Service (CNCS) and Deborah 
Jeffries, the Inspector General, for joining us today.
    We are here today to discuss the critical role that the Corporation 
for National and Community Service, or CNCS, has in encouraging 
volunteerism and civic engagement. I'm a big fan of saying that 
``service is indeed the rent we pay for living on this earth.'' Service 
is the foundation of our democracy, and its value to our society cannot 
be overstated.
    Since its founding, CNCS has engaged millions of volunteers in 
national and community service. These volunteers have served as 
teachers, tutors, mentors, and counselors working with disadvantaged 
students in high need schools. In cases of natural disasters, 
volunteers have helped local communities prepare for, mitigate, 
respond, and recover from forest fires, floods, hurricanes and 
tornadoes. Volunteers have assisted our nation's veterans in adjusting 
to civilian life, constructed and rebuilt homes for thousands of 
families, helped our nation's seniors in maintaining the highest degree 
possible of independent living and much more.
    All of us ought to be engaged in national service. So thank you 
CNCS for being a leader on this issue. You see, my upbringing taught me 
that we won't be able to celebrate community nor can we build 
community--``if we're not inclusive and don't care for the least of 
these.'' As we engage ourselves in trying to improve and better our 
community, we must do so remembering that we are thy brother's and thy 
sister's keepers and as such we are inextricably tied to one another. 
But in order for the community to be engaged, the community must be 
involved. And that is exactly what CNCS does. CNCS and the
    community volunteers they coordinate enable tens of thousands of 
nonprofit organizations, faith-based groups, schools, and municipal 
agencies to solve tough problems and meet local needs. CNCS serves, 
builds, and makes an impact that changes lives and communities.
    Martin Luther King, Jr. once said, ``The ultimate measure of a man 
is not where he stands in moments of comfort and convenience, but where 
he stands at times of challenge and controversy.'' During times of 
challenge, CNCS is there----
    * During the Flint Water Crisis, CNCS deployed an AmeriCorps team 
to Flint, Michigan, to support state and local efforts to protect the 
public health of residents facing challenges from increased lead levels 
in the Flint water supply.
    * When Hurricane Katrina devastated the South, CNCS deployed an 
AmeriCorps team to the region.
    * And when tornadoes wreaked havoc in Oklahoma, AmeriCorps 
volunteers were there.
    Needless to say, I could praise the instances of these volunteers 
helping our nation's communities in times of need. But, I'll stop here 
and say that it is without a doubt that CNCS has improved the quality 
of life in my home state of North Carolina and in communities around 
this great nation.
    The Edward M. Kennedy Serve America Act reauthorized and expanded 
the national service programs administered by CNCS. After I was sworn 
into Congress, I made it a priority to join the Committee on Education 
and the Workforce. I fought to get on this Committee intentionally 
because I understand the significance of community engagement. And as a 
member of this Committee, I feel responsible for ensuring that the 
Corporation has strong management, monitoring, and oversight, as well 
as the resources to effectively administer its programs and carry out 
its
    mission. While there is always room for improvement, I strongly 
believe that CNCS is taking this responsibility seriously.
    With regard to the recent incidences that occurred with the 
1AmeriCorps program, CNCS discovered and resolved these issues with 
deliberate action. And I can't help but think that if this were 
anything other than services related to women's health, that the 
Corporation would not be called in front of us here today.
    As we proceed with this hearing, I want to strongly encourage my 
colleagues on this Committee to focus on the vital importance of 
service to our nation. While we must maintain vigorous oversight and 
enforcement, we must also remember how CNCS engages over a million 
volunteers, which is something that benefits local communities all 
across America, on both sides of the aisle. And I look forward to 
hearing more about how we can improve and strengthen national service 
programs that are so important to our nation's success.
    Thank you.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Dr. Adams. Pursuant to 
Committee Rule 7(c), all members will be permitted to submit 
written statements to be included in the permanent hearing 
record. And without objection, the hearing record will remain 
open for 14 days to allow such statements and other extraneous 
material referenced during the hearing to be submitted for the 
official hearing record.
    It is now my pleasure to introduce our distinguished 
witnesses. The Honorable Wendy Spencer is the chief executive 
officer for the Corporation for National and Community Service 
here in Washington, D.C. Ms. Spencer began serving as CEO of 
the Corporation on April 9, 2012. Prior to that, the 
Corporation, Ms. Spencer served as the CEO of the Florida 
Governor's Commission on Volunteerism and as the director of 
the Florida Parks Service.
    The Honorable Deborah Jeffrey is the inspector general for 
the Corporation for National and Community Service here in 
Washington, D.C. Ms. Jeffrey joined the corporation as 
inspector general on July 19, 2012. Prior to this, Ms. Jeffrey 
spent 25 years in private practice of law, including as an in-
house counsel on ethics and loss prevention.
    I now ask our witnesses to raise your right hand.
    [Witnesses sworn.]
    Chairwoman Foxx. Let the record reflect the witnesses 
answered in the affirmative.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. You have 5 minutes to 
present your testimony. When you begin, the light in front of 
you will turn green. When 1 minute is left, the light will turn 
yellow. When your time has expired, the light will turn red. At 
that point, I will ask you to wrap up your remarks as best as 
you are able. Members will each have 5 minutes to ask 
questions.
    Now I would recognize the Honorable Wendy Spencer for her 
opening statement.

     TESTIMONY OF WENDY SPENCER, CHIEF EXECUTIVE OFFICER, 
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

    Ms. Spencer. Thank you, Madam Chair, Dr. Adams, members of 
the committee. Thank you for inviting me to testify today. I 
welcome this opportunity to discuss our commitment to 
accountability and good stewardship of taxpayer dollars.
    Today, 345,000 Senior Corps and AmeriCorps members are 
serving in 50,000 locations across the Nation. These dedicated 
Americans serve in tough conditions to meet pressing local 
needs like tutoring and mentoring at-risk youth, responding to 
disasters, supporting veterans and their families, and much, 
much more, all while recruiting millions of additional 
volunteers to serve alongside them and multiply their impact.
    National Service invests in local solutions. It provides 
human capital support to increase the impact of nonprofits and 
faith-based organizations and other community organizations. 
Governor-appointed state service commissions decide where most 
of the AmeriCorps resources are invested. Local groups recruit, 
select, and supervise their members. Mayors and county leaders 
are also an important part of our partnerships at the local 
level.
    Congress created our agency years ago to empower citizens, 
solve problems, and expand opportunity. Our agency is built on 
smart, commonsense principles, local control, competition, 
public-private partnership, and a focus on results. And it's 
working.
    I share the committee's view that our agency has a 
responsibility to ensure Federal funds are well managed. That 
has been my priority from day one. We have built a culture of 
accountability and strong systems of monitoring and oversight. 
These systems are working.
    Misconduct is very rare, but when it happens, we take 
strong action. Accountability is more than compliance. It also 
means achieving our mission. We are investing funds more 
effectively to drive community impact by using evidence, 
increasing competition, and measuring performance.
    My written testimony details our comprehensive risk-based 
system to prevent and detect issues and enforce our rules. But 
let me list just a few to highlight.
    We start before a grant is ever made by doing a financial 
scan and reviewing past performance. Every direct grant is 
monitored for fiscal and programmatic compliance. Every year 
our staff conducts a risk assessment of our entire portfolio of 
grants to inform our monitoring plan. Grantees identified as 
having risk receive site visits, desk reviews, and other types 
of audits. In fact, 3,200 have occurred in the last 5 years. If 
issues are discovered, we enforce our rules. That can mean 
requiring corrective action plans, placing funds on hold, 
reporting activities to the inspector general, or even 
suspending or terminating a grant.
    In recent years we have strengthened our monitoring and 
oversight in many ways through expanded grantee and staff 
training, better use of financial data, increased control on 
fixed-amount grants, improvements to our grants management 
system, better communication with our grantees and members, and 
more.
    Several initiatives currently underway, we have just 
recently hired a chief risk officer; the first in our agency's 
history and one of only a few positions like it in the Federal 
Government. This executive will lead an office that oversees 
all of our risk assessment programs, an integrated coordinated 
approach to better manage our resources and decision-making. We 
believe we are ahead of the curve in developing an enterprise 
risk management program to help us take a holistic view of 
risk.
    We are updating our grant management IT system. A key 
component will be to enhance and validate our grantee risk 
model. This will enable us to move from compliance-focused 
monitoring to a more nimble and targeted risk-based approach.
    Given the priority we place on accountability, we are 
deeply disappointed that a grantee authorized National Service 
participants to engage in prohibited activities. We immediately 
referred this matter to the inspector general for 
investigation. Once the results were known, we suspended the 
grantee from enrolling new members, directed them to hire an 
independent oversight monitor, and required them to take 
several other corrective actions. The inspector general stated 
our response was robust.
    The IG concluded that the noncompliance was extremely 
limited in scope involving six of nearly 1,600 members serving 
under this particular grantee over three years. It is important 
to put that in perspective. That is six members out of more 
than 1 million National Service positions in the same period. 
In fact, since this subcommittee's hearing five years ago, 
there have been nearly 2 million AmeriCorps members and Senior 
Corps positions granted. Members have served 820 million hours. 
They have made an extraordinary contribution to our communities 
and our Nation.
    I hope that my testimony today assures the committee of our 
commitment to accountability and our interest in doing more and 
making improvements where needed. We look forward to working 
with you to further strengthen the impact of National Service. 
And as I always ask members of Congress, I welcome your advice 
and your guidance. Thank you, Madam Chair.
    [The statement of Ms. Spencer follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
        
    Chairwoman Foxx. Thank you very much, Ms. Spencer. Ms. 
Jeffrey, you are recognized.

 TESTIMONY OF DEBORAH JEFFREY, INSPECTOR GENERAL, CORPORATION 
               FOR NATIONAL AND COMMUNITY SERVICE

    Ms. Jeffrey. Chairwoman Foxx, Ranking Member Adams, and 
members of the subcommittee, thank you for inviting me to 
testify about the work of the Office of Inspector General to 
strengthen accountability at CNCS. I have had the privilege of 
serving as the IG for nearly 4 years.
    Since early 2013, OIG has been recommending substantial 
improvements to CNCS's grants management, especially risk 
assessment and focused monitoring. We have identified new 
monitoring requirements and encourage CNCS to begin work on 
them early. Our work has shown that better internal controls 
and risk management are needed across the organization.
    OIG conveys our recommendations in audit and investigation 
reports, in meetings with CNCS's leaders, and in briefings of 
the board of directors. We summarize them in our semiannual 
reports to Congress.
    We have also identified other sources of help for CNCS. 
Following a troubling financial statement audit, we initiated 
discussions with OMB and CNCS to develop a plan for substantial 
upgrades to internal controls. We recommended an assessment of 
information technology and how it could better support the 
agency's operations and programs. CNCS responded by 
commissioning a report by The MITRE Corporation which gave rise 
to the present IT modernization plan.
    To jumpstart progress, we introduced the chief operating 
officer to the Federal Enterprise Risk Management community and 
its resources. We have long advocated that CNCS hire a chief 
risk officer whom we recently welcomed.
    At our suggestion, the House Committee on Government Reform 
requested a GAO study of grant monitoring at CNCS which is 
currently in progress. And to improve criminal history 
checking, we brought in the National Center for Missing and 
Exploited Children to share its expertise in assisting 
nonprofits.
    CNCS has adopted a number of our individual 
recommendations. There is an increased focus on accountability 
and the leaders recently brought on board share that priority.
    But much work remains to be done on basic risk management 
systems. High turnover in key accountability positions, 
insufficient resources, and lack of trained leadership have 
impaired efforts to improve accountability. CNCS lacks bench-
strength and grant risk assessments and monitoring, creating 
appropriate internal controls, and identifying and reducing 
improper payments.
    The agency has repeatedly promised progress, but it 
continues to struggle. Its grant monitoring depends heavily on 
risk assessments of unproven reliability. Our preliminary 
review of 40 seriously troubled grants found that half had not 
been monitored closely because they were rated as low or medium 
risk. CNCS was therefore blindsided by the serious problems 
that occurred.
    Our audits and investigations also often find that the 
staff has missed red flags. That was the case with OIG's recent 
investigation of abortion-related prohibited activities. As you 
alluded to, Chairwoman Foxx, last month OIG reported that the 
National Association of Community Health Centers allowed a few 
AmeriCorps members to provide emotional support to women during 
abortions at three New York City clinics operated by a sub-
grantee. The Federal statute authorizing the AmeriCorps program 
expressly forbids the use of AmeriCorps resources to provide 
abortion services or referrals for receipt of such services. 
Among the missed opportunities, from 2009, CNCS was on written 
notice that one NACHC's sub-grantees was performing abortions 
and having AmeriCorps members provide pre-abortion assistance. 
The agency did not ask the identity of the sub-grantee, did not 
determine whether the pre-abortion support activities were 
prohibited abortion services, and did not target NACHC or the 
sub-grantee for particular monitoring. The staff also did not 
record this key risk-related information in its online grants 
management system. Important institutional knowledge was 
therefore lost.
    The agency made a considered decision in 2009 not to 
provide general guidance on the meaning of the abortion 
prohibitions. Its first interpretive guidance was imbedded in 
voluntary online training in 2014. There, CNCS stated for the 
first time that an AmeriCorps member is prohibited from 
accompanying a woman at a facility for an abortion; precisely 
what was taking place at the sub-grantee.
    The measures that CNCS is now implementing could have been 
adopted long ago. These include OIG's recommendations, one, to 
analyze grantees' programmatic activity and clientele in order 
to identify those that present a heightened risk of a 
particular prohibited activity. There is a greater risk of 
abortion-related activities at a clinic that provides women's 
healthcare than at a program for Meals on Wheels to senior 
citizens. Second, to expand its repertoire of monitoring 
activities to include more frequent direct communications with 
AmeriCorps members, including surveys.
    My staff and I see great potential to improve 
accountability at CNCS and we look forward to working with the 
Congress and agency leaders to that important objective.
    Madam Chairwoman, this concludes my statement. I would be 
pleased to answer any questions that you or the other members 
might have.
    [The statement of Ms. Jeffrey follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairwoman Foxx. Thank you very much, Ms. Jeffrey. I would 
now like to recognize our subcommittee members for their 
questioning and I will recognize the chairman of the full 
committee, Mr. Kline, to ask the first question.
    Mr. Kline. Thank you, Madam Chair. Thank the witnesses for 
being here today for your testimony.
    I must say, Ms. Jeffrey, listening to your testimony, there 
are a lot of concerns that you raised and one of them was 
repeated staff did not, staff did not, staff did not, did not 
recognize, they didn't take action, they could have, they did 
not. And that makes me worry about what the culture and the 
leadership might be and that would be back into Ms. Spencer's 
box. But I want to come specifically back to you, Ms. Jeffrey, 
the inspector general, because you talked about some steps that 
have been taken and could be taken, you hope will be taken. But 
you also in your testimony highlight the structural challenges 
to better oversight at the corporation. Can you discuss why 
these structural challenges pose an issue in whether the 
corporation can properly oversee the program under its charge, 
structural?
    Ms. Jeffrey. Thank you, Mr. Chairman. The corporation has 
not invested enough time, attention, and effort in 
strengthening its structural internal controls. That has been a 
finding repeatedly in the financial statement audits which are 
conducted by an independent auditing company that audits a 
number of Federal agencies.
    The corporation often says that it will improve, it makes 
efforts to do so, but its turnover in leadership of that effort 
has impeded progress. The staff who are charged with 
responsibility for this important function are undertrained. 
They are under-resourced. And until the recent hiring of a 
chief risk officer, they have not been led by someone who is 
properly educated, trained, and with sufficient expertise.
    The corporation also suffers some structural impediments by 
virtue of its outdated information technology system and how 
that impacts grant management. That is a place in which the 
corporation has made some progress. There is an IT 
modernization plan. It is underway and I believe it will 
substantially improve grant monitoring two or three years 
hence. Until that time however, the monitoring is extremely 
laborious, conducted by hand, and does not have the benefit of 
data analytics. We have been urging improvement on that score 
as well virtually since the day I came to the corporation in 
late 2012.
    Mr. Kline. It sounds daunting to say the least. It's going 
to take time. It's going to take real leadership. Is it going 
to take reorganizing, creation, eliminating some departments 
and creating new ones? Obviously, you've created a new one when 
you hired a chief risk management officer. Are there other 
organizational things that the IG has recommended?
    Ms. Jeffrey. We have recommended that the corporation 
undertake an assessment of what it will take to do these 
things, real planning with meaningful milestones, meaningful 
deadlines, and an assessment of the resources that will be 
required to get to the finish line. I understand that is 
underway now. We have not yet seen its results. And of course, 
the chief risk officer has only been on board for about a 
month.
    Mr. Kline. It is like an indictment of a lot of people in 
an oversight role and a management role. I suppose we have to 
include ourselves in the oversight business. We will be taking 
a close and continuous look as we go forward because the 
problems, to listening to the IG, are extensive. I yield back, 
Madam Chair.
    Chairwoman Foxx. Chairman yields back. Mr. Scott, I 
recognize you for 5 minutes.
    Mr. Scott. Thank you. Thank you, Madam Chair.
    Ms. Spencer, most of this fanfare is over the abortion 
services. How many employees were involved in that?
    Ms. Spencer. Good day, Mr. Scott. According to the IG's 
investigation that was very thorough and swift, it illustrated 
that there were six AmeriCorps members at a limited scope of 
time. I don't know that we can delineate the exact amount of 
time, but if we were pressed we would probably say, combined, 
maybe as much as 10 hours.
    Mr. Scott. Ten hours, okay. And the hourly rate--
    Ms. Spencer. Total.
    Mr. Scott. Total aggregate total. And the expense of an 
AmeriCorps member is about $10 an hour give or take?
    Ms. Spencer. Well, AmeriCorps members' stipends vary. These 
are full-time members. They receive approximately $12,600 a 
year. It is a living stipend, not a living wage. And then 
followed up with a college scholarship of around $5,700 at the 
close of their commitment.
    Mr. Scott. Full-time, 2,000 hours--
    Ms. Spencer. Seventeen hundred.
    Mr. Scott. It is about, in stipend, it is about $10 an 
hour. So we are talking about somewhere around $100?
    Ms. Spencer. That is correct.
    Mr. Scott. Uh-huh. What is the total budget for this 
grantee?
    Ms. Spencer. Around $6 million, approximately 525 full-time 
AmeriCorps members.
    Mr. Scott. Were they told by outside attorneys that their 
activities were legal?
    Ms. Spencer. Were legal?
    Mr. Scott. Right. Did they consult outside attorneys before 
they reported it? Before you found out?
    Ms. Spencer. So several things occurred. Several years ago 
there was dialogue by Email back and forth, but looking back at 
that, not very clear to me. It talked about reproductive 
services, other things. I think looking back, both parties, the 
grantee and our staff, could have been more clear. But yes, 
they were told that it was against the rules to provide 
abortion services.
    Mr. Scott. Well, they were told. Before they were told 
that, did they seek other counsel that gave them the impression 
that it was not illegal?
    Ms. Spencer. The inspector general report alludes to in 
writing that it appeared there was some conversation on their 
part with outside legal counsel. She might be able to speak to 
that a little bit better than me.
    Mr. Scott. All right, let me ask Ms. Jeffrey. Did they seek 
outside counsel and were told that their activities were not 
inappropriate?
    Ms. Jeffrey. I think that would be something of an 
overstatement. What we know is that at some point when the 
grantee learned that an individual AmeriCorps member and a sub-
grantee was acting as an abortion doula, they did two things. 
The national director at NACHC said that he analyzed for 
himself whether this conduct was permissible. He also said that 
he spoke to outside counsel. Looking at the documents, it 
appears that his conversation with outside counsel concerned 
whether it was permissible to be performing abortions at that 
clinic, not whether it was permissible to use AmeriCorps 
members. But he was not very specific about it and sometimes 
implied--
    Mr. Scott. Okay, so there was at least some discussion 
about whether--the legality of this activity. We are talking 
about $100 out of millions. I mean, we have spent more than 
that in congressional salaries listening to the opening 
statements. We have run through $100. I would like to get from 
the chair how much money has been spent on this subcommittee 
meeting. If we could provide that for the record so we can put 
all these numbers in perspective because we are talking about 
$100 that we are chasing. What has happened to the grantee 
since then?
    Ms. Spencer. Several things have occurred over the course 
of several weeks, so allow me just to share the entire picture.
    Mr. Scott. Well, I only have a couple seconds left. Is it 
true that they are not being renewed?
    Ms. Spencer. May I continue? I know we are out of time, 
Madam Chair.
    Chairwoman Foxx. Yes, ma'am.
    Ms. Spencer. Thank you. So during this time period of this 
particular grantee, coincidentally, happened to be up for a new 
grant, the start of a brand new grant. They were notified a few 
days ago through the regular grant process that they will not 
receive a new grant in this process based on our regular grant 
process.
    Now, they have an existing grant that is ongoing. It 
terminates on July 31st. So they have received a letter this 
morning reminding them that their grant terminates on July 31st 
and instructing them to end the AmeriCorps member service at 
the New York site where the inappropriate activity occurred.
    Now normally a grantee would ask for a no-cost extension 
for a year as a normal process. I am not inclined to grant them 
a no-cost extension. But if they meet all of our demands over 
the coming days as they close out this grant--hiring a monitor, 
an ombudsman, not enrolling new members, all of these things; 
there is a long list of requirements--I am amenable to 
entertaining the thought of a short-term extension for 90 days. 
If I did so it would mean that 500 AmeriCorps members get to 
complete their full term of service.
    I want to look at the AmeriCorps members and try to say, 
should they be completing their terms of service, their 
commitment they made to our country. Above the actions of one 
or two individuals at the agency, at the Community Health Corps 
Administration? So I am amenable to looking into that. So that 
is the current status at this point.
    Chairwoman Foxx. The gentleman's time has expired. The 
gentleman from Tennessee, Dr. Roe, is recognized.
    Mr. Roe. Thank you, Madam Chairman.
    You know, typically the indiscretions of a few will hurt 
the many who do good. And there is no question that is true. 
And many of us feel very strongly about abortion whether you 
are pro-choice or pro-life. I happen to be an obstetrician. As 
I spent 31 years doing that, delivering about 5,000 babies, I 
am strongly pro-life. And I think that the intent of those 
grants was very clear. I can certainly see why someone who has 
had an abortion, who has problems emotionally, would feel like 
you want to help them. I certainly understand that. I have done 
that. When people had them someone else and came to me, I did 
offer support for those patients and would continue to do so. 
But the grants can prohibit that. It's not to be used and I 
think we feel like if we allow that, you will get on a slippery 
slope and then people just decided what they want to do. And I 
think that's the problem I have seen with--I am on the 
Veteran's Affairs Committee and one of the problems I have with 
this place is the lack of accountability. People just do what 
they want to because they think they want to, not the intent of 
Congress, and then there are no consequences to it.
    So what I want to dig into, first of all, were there just 
six people? What have been the consequences to that? Because if 
the consequences were in this, we just cut the grant off. And 
realizing that there are AmeriCorps members out there working 
hard every day, New York or wherever they may be working that 
are doing good work, if those consequences were there like 
that, those grantees would not do that. If there was some 
accountability like that.
    And I think that you as a director, Ms. Spencer, are going 
to have to say, well, I would like to see these people go on 
and do all. Well, then there have been nothing for these 
people. If you think about it, we are having this discussion 
about not a lot. And what Mr. Scott was talking about, about 
the amount of money, I do not care about that. It is the 
principle that is involved. And I think, you know, a billion 
dollars is a lot of money. It is a thousand million dollars 
that you oversee every year. And so I want to know had there 
been more than six, Ms. Jeffrey? Were there more than that? Or 
how did you determine there were just six people involved?
    Ms. Jeffrey. Thank you. We, in fact, know that there were 
more than six involved.
    Mr. Roe. Okay.
    Ms. Jeffrey. There are six that we can identify by name. 
The only way we are able to identify the individuals who served 
as abortion doulas is if they somehow made a blog post or sent 
something that is in the public record about their service. We 
know that there were additional individuals. We do not know how 
many because typically AmeriCorps members do not keep detailed 
time records of their activities. And so it is very difficult 
to quantify the number of people.
    That said, it appears that the activity was limited to this 
one sub-grantee. And it is not given the number of individuals 
we can identify, we don't think it is orders of magnitude off.
    Mr. Roe. Thank you, Ms. Jeffrey. What date does the sub-
grantees contract basic grant end?
    Ms. Spencer. July 31st.
    Mr. Roe. And has not been renewed.
    Ms. Spencer. No.
    Mr. Roe. And that they can't apply in some other grant. 
Would you accept a different grant from these people?
    Ms. Spencer. They just applied for one which was denied, 
and they just received that. That was a $6 million request, a 
little over $6 million request, and they were denied that.
    Mr. Roe. Let me ask a question. When you are looking at a 
program, a success or a failure of a program, what is a win? 
How do you evaluate the success of a program because this one 
clearly was not? I mean, someone in that shop decided we are 
going to do this knowing good and well that they should not do 
it. We will just do it and we probably would not get caught. We 
will ask for forgiveness if we get cause because there is no 
risk to us if we do. And the risk, I guess, is not getting 
another grant, but that is it. You did not stop the grant.
    So how do you evaluate a program? In other words, how do 
you define a win, a success?
    Ms. Spencer. Thank you for that question, Congressman. 
Fortunately, we have an amazing array of successes all over the 
country with 345,000 National Service participants during a 
day. I have the joy of seeing those all over the country in 
rural and cities and travel communities serving in disasters, 
education. And a success would be something like this. A 
program meets all of our requirements. They have filed their 
financial reports on time. They have strong audits. They have 
proper management and oversight. They have strong outcomes. 
They are measuring their performance and reporting to us what--
that--our larger programs are doing--
    Mr. Roe. I am about out of time, but when someone applies 
for a grant, there are metrics out there, benchmarks that they 
have to meet.
    Ms. Spencer. Absolutely.
    Mr. Roe. Okay, I yield back.
    Ms. Spencer. Thank you.
    Chairwoman Foxx. Thank you, Dr. Roe. Dr. Adams, you are 
recognized for 5 minutes.
    Ms. Adams. Thank you, Madam Chair. I am a little bit 
curious about the review process. If you could talk a little 
bit more about it. Was it just written? Were there verbal 
conversations with the applicants? How did that work, Ms. 
Spencer?
    Ms. Spencer. Thank you, Dr. Adams. I am sure you are still 
referencing the Community Health Corps or just in general 
review processes?
    Ms. Adams. Yeah, for this particular--
    Ms. Spencer. For this particular.
    Ms. Adams. Right.
    Ms. Spencer. They did have a desk audit in 2014. So they 
are assigned a program officer as soon as they receive a grant 
from us. In this particular case, it is a direct grant that we 
are managing. It is not going through one of our Governor's 
Commissions on Volunteerism, which two-thirds of our grants are 
AmeriCorps grants, are managed through Governor's Commissions 
on Volunteerism. But this one is not. This is a direct grantor 
agency, so they are assigned a program officer.
    That program officer reviews all of the terms and 
conditions with them. They provide direction to them to 
trainings, to opportunities to find information like on our 
Knowledge Network. We host nationwide trainings and regional 
trainings. They attend those. They do monthly check-ins. So it 
is a regular communication all the time. In this particular 
case, this grantee knew the rules.
    Ms. Adams. Okay, so--
    Ms. Spencer. That's what is unfortunate.
    Ms. Adams. Yeah, okay. So as a follow-up, in the 
discussions, did they talk about abortion?
    Ms. Spencer. It happened and I read a string of Emails 
where there was communication back and forth. But if you look 
back today as sort of hindsight armchair quarterbacking, the 
language between the parties was sort of evasive. I think the 
parties should have just picked up the phone and say, what are 
you trying to do? Let us give you direct guidance. You may not 
do abortion services. That is not allowed according to the 
Serve America Act of which Congress has given us those rules.
    So it looked like they were dancing around words and it was 
hard to understand. But they were told you could not perform 
abortion services.
    Ms. Adams. Okay, let me ask. You mentioned no-cost 
extension, that they could ask for that.
    Ms. Spencer. Uh-huh.
    Ms. Adams. Have they asked for a no-cost extension?
    Ms. Spencer. No.
    Ms. Adams. And so you did say you would consider it. So 
when did you make a decision and would you approach them about 
doing it? I mean, since we are talking about, maybe you are 
talking about some misconduct, but not everybody was 
responsible for it and not wanting everybody to suffer. So what 
is your thought about that?
    Ms. Spencer. Well, I think Congressman Roe makes a good 
point. You do have to look at the intent of an organization and 
how they are being managed. So I am concerned. What would guide 
my decision in the coming weeks would be are they following our 
demands? Are they meeting all of the requests that we have 
asked them to do of which the IG also made recommendations to 
us which we have adhered to? So I would watch and see. Are we 
working in good faith with one another? Are they being 
responsive? There are many things they could do to try to 
convince us that they will adhere to the rules.
    Ms. Adams. Okay, so since there is not much time, you 
mentioned that the grant is up in July. But let me just move on 
and ask, what exactly were the volunteers doing? I mean, did 
they perform the abortions that you are talking about?
    Ms. Spencer. Oh, no, ma'am.
    Ms. Adams. Okay.
    Ms. Spencer. As I understand it, an abortion doula. And 
this is things that I am learning about, too, but was seated 
with these women during the--
    Ms. Adams. Okay, and finally before I run out of time, I 
wanted to ask you, you know, if there were some things that you 
think that were inappropriate, but what would reduced funding 
for CNCS mean for communities around the country if you had to 
do that?
    Ms. Spencer. I am sorry, what would--
    Ms. Adams. What would reduced funding do? What would it 
mean for communities around the country if their funding was 
reduced, eliminated?
    Ms. Spencer. Well, you know, I looked at all of the other 
things that the Community Health Corps does. They do diabetes 
screenings. They do breastfeeding courses. They do well-baby 
care education. They do support to veterans, support for 
seniors. They do obesity prevention. You know, this is why it 
is a mystery to me why they had to focus on this particular 
issue. There are so many other things: financial literacy, 
helping people figure out what kind of healthcare is affordable 
and available to them. There is so many other avenues they 
could be serving in.
    And in 2011, I was a grantee of this agency. I was 
receiving funds from this agency running the Florida Governor's 
Commission on Volunteerism. And I remember, Madam Chair Foxx, 
this hearing and watched with interest. It was no secret what 
was allowed and what was not allowed to any of us as a grantee. 
So, it was very clear at that time that they made the decision 
to change the wording for the member contract that allowed this 
activity to go on. So I am perplexed by that because all of us 
in the field understood the rules clearly.
    Ms. Adams. Yes, ma'am. Well, it sounds like it would have a 
devastating impact in terms of the services overall that are 
provided if the funding was not there. And I yield back, Madam 
Chair.
    Chairwoman Foxx. Thank you very much, Dr. Adams. I believe, 
Mr. Courtney, we are going to recognize you for 5 minutes.
    Mr. Courtney. Thank you, Madam Chairman. Thank you to the 
witnesses.
    Ms. Spencer, I just want to drill down a little deeper in 
terms of just who the program was in New York that was the 
subject of the IG report. Again, it was not the National 
Association of Community Health Centers that operated that 
program. It was a sub-grantee of the National Association of 
Community Health Centers, isn't that correct?
    Ms. Spencer. Yes, sir.
    Mr. Courtney. And so the total grant for the community 
health centers group nationally, again, the 535 volunteers that 
are funded, I mean, those are all across the country.
    Ms. Spencer. That is correct.
    Mr. Courtney. Not just in New York City. So for example, in 
Connecticut, where I come from, there are 21 individuals that 
are funded through that National Association grant. There are 
four in my district in Norwich, Connecticut, who I am, you 
know, a frequent flyer at that community health center. They 
don't provide anything remotely close to abortion services. So 
the four volunteers that are funded through that grant, I mean, 
do things like schedule flu shots, you know, help with 
monitoring patients who are high emergency room utilizers, you 
know, help with medication management. I mean, they are doing 
this sort of blocking and tackling of primary care. And in many 
instances, our young individuals who later on end up going to 
medical school or advanced practice nursing, I mean, it is 
really a launching pad for people in terms of a healthcare 
career that has benefits that exceed even, sort of, the metrics 
of what you were talking about in terms of program success.
    So I guess, you know, I think it is important sometimes 
right now, to put this in perspective here. I mean, if we 
cancel a contract across the country, you are hitting community 
health centers that, again, are not even close--
    Mr. Courtney.--to the activity that was the subject of the 
complaints. And you are really just depriving low-income 
patients, elderly patients. Actually, in Norwich, Connecticut, 
they provide services to some veterans in terms of dental care 
that are not covered by the VA.
    So, I mean, let's not shoot the bystander here in terms of, 
you know, overreacting to this problem that was identified. And 
I hope you keep that in mind as you sort of evaluate the next 
steps here.
    Again, the surgical remedies that have been put into place 
are totally appropriate and that's your job. But, again, sort 
of an across the board chainsaw through, you know, community 
health centers I think really undercuts the mission of the 
AmeriCorps law. I do not know if you want to react to that, but 
I really think we got to put this in perspective.
    Ms. Spencer. Thank you for that input and I concur. 
Hopefully, in the future we will find more organizations like 
this agency that is interested in our grants. So you make fine 
points on it. I agree.
    Mr. Courtney. Thank you. And I would just say that, again, 
stepping back even further in terms of just the scope of 
AmeriCorps as far as its, you know, value to the taxpayer, we 
have an RSVP program up in northeastern Connecticut that 
organizes veterans' coffeehouse. It sounds kind of small 
potatoes, but actually it has become a gathering point for the 
most rural part of the State for veterans who, as a result, are 
now getting VA benefits that they did not know they were 
entitled to because of, you know, the good information that is 
shared at that coffeehouse. We have medal recoveries for World 
War II vets, Korean War vets that never would have happened. 
And, you know, you are talking, Greg Kline's the director of 
it. I mean--
    Ms. Spencer. Yeah.
    Mr. Courtney. You know, this is really, at best, you know, 
part-time pay that is happening. But again, the ripple effect 
in terms of the value to people who wore the uniform of this 
country is, you know, far excess in terms of whatever small 
investment the taxpayer makes.
    Ms. Spencer. I recently saw Greg at a training we did, a 
regional training. And he gave me an update on that vet 
coffeehouse because he had told me about his plans over a year 
ago. And I am very pleased that you recognize them. We are 
leaning in on veterans and military family members heavily 
because there is great need there.
    Mr. Courtney. Thank you. Madam Chairman, I have an article 
from the Hartford Current which describes the AmeriCorps 
program for veterans which we discussed here and I have asked 
that it be made part of the record.
    Chairwoman Foxx. Without objection.
    Mr. Courtney. And again, I think what's--you know, again, 
get some perspective here about what happened and what is an 
appropriate remedy and not throw the baby out with the 
bathwater. I yield back.
    Chairwoman Foxx. Thank you very much. That is an 
interesting analogy you would use.
    Mr. Guthrie, you are recognized for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chairwoman. Thank you for 
being here.
    And my question, actually, kind of focuses on veterans as 
well. And to Ms. Jeffrey, in your second fiscal year 2014 
semiannual report to Congress you detail an investigation in 
which you determine a grantee was supposed to use grant funds 
to support veterans and military families, improperly disbursed 
about 140,000 of Federal funds and improperly certified another 
61,000 education awards. The grantee acknowledged the findings 
and offered to refund the corporation the entire amount you 
recommended. Unconscionably, the corporation not only requested 
reimbursement for only about a third of the funds you 
recommended, but the corporation retroactively expanded the 
range of service activities of the grant in order to justify 
the move. Is there any justification for the corporation to 
retroactively approve over 12,000 National Service hours under 
this grant to non-veterans fundamentally changing the purpose 
of AmeriCorps' member service?
    Ms. Jeffrey. In my view, there is not. And not only did 
that happen with respect to this one veteran services grant, a 
very similar thing happened at around the same time with two 
other grants where the grantee unilaterally changed the 
objective of service, did not ask the corporation for approval. 
And then, when they were caught, sought forgiveness rather than 
permission. I think strong accountability requires the 
opposite. Grantees should be encouraged to ask first so the 
corporation makes the decision about the proper allocation of 
resources. Now, I believe there has to be accountability when a 
grantee exceeds its authority in that fashion.
    Mr. Guthrie. Yeah, well, what reforms are possible when the 
corporation does not want to have the inclination to move 
forward in that? What kind of reforms can you have if the 
corporation changes the scope?
    Ms. Jeffrey. Well, what I can do is report on it. That is 
the limit of my authority.
    Mr. Guthrie. Okay, well, thank you. So, Ms. Spencer, on 
that, what are the steps to terminate a grant for failure to 
comply with the Federal law or the conditions of the grant?
    Ms. Spencer. Thank you, Congressman Guthrie. I wanted to 
point out that we looked at all of the grants over the last 
couple of years and what actions we have been taken. And I made 
a short list for the committee if it's helpful. We have had 26 
debarments, two suspensions. We have recovered $2 million in 
grant funds and we have had 52 mutually agreed terminations. So 
it is certainly something we don't take lightly. You know, we 
are co-investing with these organizations who start out well-
meaning. Many of them are faith organizations, veterans' 
organizations, local nonprofits, charities, local governments, 
education, schools. And we start out with a good plan together 
and we review them to see if they are worthy of a Federal 
investment. And we go through a lot of criteria to see if they 
are.
    So when we find, and these generally, there are exceptions, 
but generally for AmeriCorps we are looking at 3-year 
commitments. So we go into a relationship for 3 years. When we 
find that the grantees are not performing at the highest level, 
that's when we start interventions. That is when you do the 
desk audits. That is when you do more monitoring. On occasion, 
if needed, we will ask for our annual audit report. We will put 
them on the list for the inspector general to audit. 
Unfortunately, the inspector general does not have all the 
resources to audit all of our requests, but they do a very good 
job of doing what they can with what resources they have.
    So we want them to succeed.
    Mr. Guthrie. Absolutely.
    Ms. Spencer. I mean, we are in this together,--
    Mr. Guthrie. Uh-huh.
    Ms. Spencer.--but when they do not and after we have really 
tried--and I have been in a position to have to terminate 
grants from Florida when I was there directly managing about 45 
AmeriCorps grants on behalf of the governor, of three different 
governors in Florida. It's a tough decision. It is not always 
popular. But we are not in the popularity business. We are in 
the outcome business. And we chase problems and we have 
solutions for those.
    And so, I just say this--
    Mr. Guthrie. And in your audit, so some of them you said 
were mutual because I am about out of time.
    Ms. Spencer. Yes.
    Mr. Guthrie. Mutual, but if they were not mutual and you 
have had the audit and you say, hey, this is not--what do you 
actually have to--
    Ms. Spencer. I would say--
    Mr. Guthrie. What process do you have to follow to--
    Ms. Spencer.--without looking at a list, and I could 
certainly provide that of these 52 mutually agreed 
terminations, that's a good way to end it--
    Mr. Guthrie. Uh-huh.
    Ms. Spencer.--but I am probably certain that if it was not 
mutually agreed it would have been terminated. That's the best 
way to end a relationship, but--and sometimes grants find out 
they just are not suitable to manage a Federal grant. We do 
have a lot of requirements, as we should. It is the taxpayers' 
money.
    Mr. Guthrie. I think that was the case on the matter of 
this situation. They said we thought we were going to have a 
more bigger group of veterans to serve. We didn't. Therefore, 
we diverted to try to do some other things and admitted--I do 
not think it was intentional to begin with, but it became that. 
I--
    Ms. Spencer. That was a tough one because they did provide 
services to local residents, but they were not in the original 
agreement for veterans.
    Mr. Guthrie. Right.
    Ms. Spencer. So the fact they did provide services is one 
thing, but that was a tough one.
    Mr. Guthrie. Thank you and I am out of time. I yield back.
    Chairwoman Foxx. The gentlemen's time has expired. Ms. 
Davis, you are recognized for 5 minutes.
    Ms. Davis. Thank you, Madam Chair, and thank you both for 
being with us today.
    Ms. Spencer, one of the things that I think strikes me is 
that you all have really exhausted multiple resources, time, 
effort, everything in following up on this situation.
    Ms. Spencer. Yes, ma'am, we have.
    Ms. Davis. Do you have any sense in terms of what was 
required to do that? I think what I am trying to see here 
because we need to have some way of being aggressive as I think 
you have been and at the same time not having a chilling effect 
on the ability to use resources to actually improve programs, 
to make sure that everything is working as it should. What is 
your sense of that?
    Ms. Spencer. Thank you very much. When we have a grantee 
that does not follow the rules, it does take a lot of energy of 
the organization, sadly, at some of the highest level 
personnel, including our general counsel, including our chief 
of grants, including our AmeriCorps director. But that's our 
job--
    Ms. Davis. Uh-huh.
    Ms. Spencer.--and we will continue to be forthright and--
    Ms. Davis. And as I understand it, too, I mean, this 
started out as a media post, a social media post in terms of 
how it was picked up initially, but that you all took the steps 
to bring the Inspector General into it. And so, it seems to me 
that, you know, you are moving ahead in the way that is 
required. And that what we need to do and what I think we all 
need to do is to be sure that if we believe that community 
service--and I happen to believe and would love to see it 
expanded. I think that in this country, we know there are other 
countries that do this. You know, I would love to see every 18-
year-old give at least 18 months of their time in community 
service. If we had the infrastructure in this country to do 
that, it would be great. And I think we need to think about 
what that would take in order to do that.
    Clearly, in this kind of a situation, you have to be very 
aggressive about those grants. You have to be very aggressive 
that people are doing what they are expected to do. And 
occasionally, and out of 345,000 or so volunteers today, there 
were a few people who in trying to do the right thing and 
perhaps not getting the direction that they obviously should 
have gotten, they erred. Geez, I do not know. (Laughs) I do not 
know if we have very many organizations in the country that can 
say that. So I think we need to be clear about that.
    But I also wanted to know from you, as well, Madam IG, what 
do you see in terms of resources? I think you have spoken to 
this a little bit, but if we had a way of crafting additional 
help and support, would it be more monitors? Is that what you 
think is required here? Is it more training, more education? We 
are short on the resources that we're providing.
    Ms. Jeffrey. It is a very good question and I do have some 
thoughts on it. To a considerable extent, the corporation needs 
to think outside the box about how it monitors.
    As things stand now, roughly one of the few ways that a 
corporation employee has contact with members is when that 
person does a site visit. Site visits may not happen but once 
every six years. That is not an effective way to know whether 
there are prohibited activities taking place at a grantee. So I 
think there need to be avenues for more frequent contacts with 
AmeriCorps members.
    Ms. Davis. Uh-huh.
    Ms. Jeffrey. In the experience of the OIG, if you want know 
what is really going at a grantee, the members will tell you. 
They are vocal when they see something they don't like.
    Now in this case, the grantee reported this to us, to the 
corporation. But I do think that the more contact there is with 
members, and it could be done with some simple survey 
questions, the better the monitoring would be without 
investment of tremendous resources.
    Ms. Davis. And are you all monitoring the social media as 
well to pick up problems?
    Ms. Jeffrey. Interestingly enough, that was a 
recommendation that CNCS made to grantees, that they monitor 
social media.
    Ms. Davis. Uh-huh.
    Ms. Jeffrey. Had they done that, that is how the grantee 
found it in this case.
    Ms. Davis. Yeah.
    Ms. Jeffrey. Now CNCS, as far as I know, does not take its 
own advice and do that even on an intermittent or selective 
basis. That may be something that it is considering now.
    Ms. Davis. Thank you. Well, I looked at so many of the 
organizations, certainly from San Diego, and the amount of work 
the Catholic Charities is doing and many others, and, quite 
frankly, in a number of situations, of course they are 
providing emotional support. So, I think we want to be careful 
how we use those words and how that relates to other issues and 
other concerns that we have. And, perhaps, we need some way of 
better defining what that means, under what circumstances. I 
think that some of that has already been done, perhaps. But 
again, let's be really clear with the people who are engaged in 
this and let's not have a chilling effect on the young people 
in this country who are doing such fabulous work.
    Thank you so much. I see that my time is up. I am sorry. 
Thank you.
    Chairwoman Foxx. Thank you, Ms. Davis.
    Chairwoman Foxx. Excuse me, I am sorry. Mr. Polis is next. 
I apologize.
    Mr. Polis. Thank you. I really appreciate it. Thank you 
both for being here today and I want to highlight some of the 
contributions the Corporation for National Community Service 
has made in my district as an example.
    As my colleagues know, Colorado declared a state of 
emergency in the fall of 2013 after experiencing the most 
damaging floods in our State's history. Many homes, businesses, 
roads, bridges were destroyed. There was loss of life. Thanks 
to CNCS, though, volunteers were immediately deployed to 
Colorado to help in the aftermath of our floods. And in total, 
over 700 National Service members came to our State. Their work 
involved volunteer donations, management, staffing call 
centers, coordination of medical mobility rides, community 
relations activities, meal services. I got to visit a number of 
them as they were working to help feed some of those who had 
lost their homes, and mucking and gutting and debris removal as 
well.
    I want to thank you, first of all, for CNCS's quick 
response. And I was hoping you could talk a little bit more, 
Ms. Spencer, about the important role CNCS has when a natural 
disaster occurs, like ours.
    Ms. Spencer. Thank you so much, Congressman. After some of 
those disasters I actually toured in your district to see the 
work of our National Service participants and I appreciate you 
calling out their success. We have responded over the last 
several years to 200 natural disasters and some manmade 
disasters across the country. So we are very busy. We have 
individuals deployed right now in communities across the 
country.
    This is an area that is very personal to me. I led the 
volunteer and donations response for Governor Bush in 2004 and 
2005, when we had eight major disasters over a 2-year period 
and about 250,000 volunteers, including thousands of National 
Service participants who were leading the way there. So this is 
very personal to me.
    We have a robust disaster program. We have trained 
virtually every governor's commission on how to be engaged with 
their State emergency manager using National Service 
participants in their response and volunteers working closely 
with their local volunteer organizations active in disasters, 
their faith-based organizations that are working in disasters. 
We have trained a cadre of individuals all over the country. At 
any given time, we have got over 3,000 AmeriCorps members ready 
to respond, ready to be deployed, redeployed, mobilized across 
the country. We worked with the private sector on this. And 
during Hurricane Sandy we actually had Southwest Airlines move 
AmeriCorps members quickly across the country so they could get 
in and be deployed along with about 400 AmeriCorps members.
    We have FEMACorps now who are serving, young people 18 to 
24, who are serving alongside FEMA professionals. They are 
doing amazing work and they are learning now how to become 
professional disaster responders. And they are moving into 
careers in government and in nonprofits with disaster response. 
So we are not only helping the individual communities. We are 
training a new cadre of Americans to serve in this area. And 
emergency managers both local and State and Federal across the 
country have told me this is a gap that they have in 
professionals, and they have a lot of professionals retiring, 
like many sectors, and they need young people pursuing disaster 
response as a career and many of our young people are pursuing 
technology, but we need more in this area of public service.
    So I am very excited about this. Whenever we have a major 
disaster, I generally go personally, stop what I am doing, 
travel to that district within 10 to 14 days so that I can 
speak with local authorities and make sure that we are 
responding swiftly and see what else we can do. I meet with 
elected officials in the area. I have been all over the country 
in disasters and I bring with me the experience I brought from 
Florida and all of the service we did and how to train 
individuals to respond with appropriate volunteer and donations 
response. So thanks for pointing them out. We are doing a lot. 
We have a robust program and we want to do more.
    Mr. Polis. Well, thank you. And it was a great opportunity 
to interact with that, with many of your members in the field 
and in so many important roles in our State. And as you 
indicated during your visit to our district, it was--there were 
tens of thousands that were temporarily homeless. Many 
thousands lost their homes. And really, the community came 
together. But truly, the help with the managing, the outpouring 
of support from the untrained volunteers in our community is 
why we needed the trained volunteer and donations management. 
So many people wanted to help with goods and with time, but 
without the structure that CNCS provided with folks on the 
ground, we really wouldn't have been able to take advantage of 
that, and I just want to thank you.
    Ms. Spencer. Thank you for those remarks.
    Chairwoman Foxx. Thank you, Mr. Polis. Now, Mr. DeSaulnier, 
you are recognized for 5 minutes.
    Mr. DeSaulnier. Thank you, Madam Chairwoman, and no apology 
necessary.
    I just really want to commend you both on the work you do. 
What you do is so important. I do not think often enough we 
give enough attention to programs, the volunteer programs that 
you oversee and also the challenge of doing them properly. And 
I am reminded sitting here today, whether it was de Tocqueville 
to David Brooks recently talking about the importance of 
community and the breakdown of community in the United States 
and how important these nonprofits, community groups are to the 
fabric of America. So thank you for what you do.
    I want to talk little bit about--well, first I want to 
follow what Mr. Polis said. In California, of course, we had 
similar instances where your services and your grantee services 
have been very helpful in natural emergencies and now with the 
drought. With wildfires, I hear the same thing. So thank you 
for that.
    But I want to talk about both proportionality that Mr. 
Courtney brought in, that all the good things you do and, you 
know, this might go in one of those categories where no good 
deed goes unpunished in terms of your proper oversight given 
the overall proportion of good work that most of your grantees 
are doing and your oversight, but also sort of the right 
investment.
    So, Ms. Spencer, you mentioned in your comments under 
strengthening risk-based monitoring, ``In the spirit of 
continuous improvement, we are implementing additional steps to 
increase the effectiveness of our oversight and monitoring,''--
and I want to sort of emphasize that word ``effectiveness''--
then you go on to say, ``as part of our continued effort to 
incorporate best practices in our risk management.'' So there 
is, coming from the private sector--I know that industries, 
whether it's their insurance or just good management practices, 
you know, for instance in the construction industry, a certain 
proportion of your overall budget is going to be waste or 
theft. I was in the restaurant business. You did not want 
anybody stealing from you, but you did know that there was a 
point where there was diminishing returns on what you spent to 
make sure you bring it to zero.
    So that is what wanted to ask you. As you look at your risk 
management and, sort of, industry best practices, given that 
you are dealing with nonprofits, given that you are dealing 
with nonprofits who do not have a lot of administrative 
overhead, and you are trying to encourage volunteerism, is 
there sort of an accepted--or do you--knowing that particularly 
in areas where you know that there is going to be a certain 
amount of public and political consequences if you don't get it 
to zero, what is appropriate?
    And I think back at my time in the California legislature 
wherein the previous governor spent so much time on waste and 
abuse in the food stamp program, we actually found out that we 
were spending too much and it was affecting our participation 
rates. So somewhere in there, it is sort of the right porridge. 
Is there a best practice when you come to your profession/
industry?
    Ms. Spencer. Thank you so much, Congressman. I think it 
would be too strong to say that there should be an accepted 
amount of risk. And I come from this from my experience in 
Florida managing about 45 AmeriCorps grants all over the State, 
about 1,800 AmeriCorps members at any given time and we had 
strong grantees. We had, during my watch, no fraud. I can't 
recall any waste. Did we--we were focused on are we investing 
the resources in the right areas? For example, I had a grantee, 
a long-term grantee, that was providing education programs in 
an area that was improving in their education success. So we 
moved those resources to another area that was struggling. So 
as you see success, right, you shift your resources.
    Mr. DeSaulnier. Uh-huh.
    Ms. Spencer. That is not fraud, waste, or abuse. That is 
just smart management.
    Mr. DeSaulnier. Uh-huh.
    Ms. Spencer. So I would not be able to say that there is 
some kind of accepted risk. I do not think that is a path that 
we should consider. The inspector general and I agree on--
    Mr. DeSaulnier. If I could--
    Ms. Spencer.--much more than we--
    Mr. DeSaulnier. Yeah, I am sorry to interrupt, but since I 
have limited time, I did want to suggest that you want to get 
to zero and I think you have done a great job of that.
    Ms. Spencer. Uh-huh.
    Mr. DeSaulnier. But at some point from a business model, 
there is diminishing returns where you are spending so much, 
where you, sort of, have to go upstream, which I think you have 
done.
    Ms. Spencer. I see.
    Mr. DeSaulnier. So it is more--less on the subjective 
point. We are more of the objective. We are spending X-amount 
of dollars to capture this much of fault.
    Ms. Spencer. And I think that--I was going to say and this 
pertains to this, the inspector general and I agree on a lot 
more than we disagree on.
    Mr. DeSaulnier. Uh-huh.
    Ms. Spencer. And she is right. We need improvements in our 
IT. We need improvements in our internal controls. We hope 
Enterprise Risk Management is going to help us. We hope that 
our new chief risk officer, our first in our agency's history, 
is going to lead us and guide us. We need to take this advice 
and counsel. We are down, quite frankly, a lot of this comes to 
money, We are down $6 million over the last six years in our 
salaries and expenses line. So at some point, we have got to 
look very hard at where we are shifting our resources. So it's 
an important to make. You have to make best decisions and the 
most cost-effective decisions. And I think that was where you 
were going.
    Mr. DeSaulnier. Thank you. Thank you, Madam Chair.
    Chairwoman Foxx. Thank you. The gentleman's time has 
expired.
    Ms. Spencer, I am glad to hear you make--in response, that 
you don't want to accept waste and abuse. You did make a very 
bold statement that in your programs in Florida you had 
absolutely no fraud and no waste. That is a pretty strong 
statement to make, but I appreciate--
    Ms. Spencer. During my time.
    Chairwoman Foxx. Would you please tell me what specific 
steps you are now taking to ensure that your grantees and every 
participant in the programs are--every participant is clear 
about what conduct is and is not allowed. And I don't want you 
to use up my whole 5 minutes outlining every single one, but 
give me some as specific as you can and then I am hoping to do 
a follow-up later to get more details from you.
    Ms. Spencer. Can I ask for clarification?
    Chairwoman Foxx. What are you doing to ensure your grantees 
and every participant is clear about what conduct is and is not 
allowed?
    Ms. Spencer. Thank you. I think we are really leaning in 
hard on our training of all of our grantees across the country. 
We have implemented some regional trainings just at the last 
couple of years that we have gotten excellent feedback from. 
And virtually all of our medium to large grantees are 
attending. Even small grantees are attending. This year we will 
probably see over 2,000 grantees in four trainings. I attend 
all of these and I address all of the participants. The 
inspector general sends her staff there. This is one way. We 
now have--
    Chairwoman Foxx. Just to clarify. All 2,000 go to four 
events each?
    Ms. Spencer. So there is four regional. So we try to spread 
them out so travel costs are reduced. In this case, this year, 
four regional conferences. And we will see about 2,000 
grantees. And these are the leaders. These are the people 
running the programs. It is important. They are listening to 
the rules. They are hearing what our expectations are. They are 
learning about accountability and oversight. The Inspector 
General brings her staff there. Their sessions are full. I have 
looked in on them.
    We are talking about criminal history checks. We are 
talking about oversight to its fullest. We are talking about 
performance measures.
    So we also now, and the Inspector General makes a good 
point about, can we do more to reach out directly to members? 
She makes an excellent point. I want to find more ways that we 
can do that. Since your last hearing, one of the things that--a 
good thing that came out of it, several good things, but one 
was that every AmeriCorps member receives a communication from 
us that stipulates very clearly what the prohibited activities 
are.
    Chairwoman Foxx. Do they sign anything acknowledging that 
they have received that?
    Ms. Spencer. I will get back to you on that.
    Chairwoman Foxx. Okay, and you said 2,000 grantees. Who is 
left out of that? I mean, how many are not participating in 
those regional programs?
    Ms. Spencer. I would have to get back to you on that to 
find out--
    Chairwoman Foxx. And why not everyone?
    Ms. Spencer. Well, that is a good point. In fact, in 
California, I went to the training conference with the 
Southwest United States, and I asked--California, of course, 
being our largest state. And the California commission 
director, who serves at the pleasure of the governor there, 
said all of her grantees in the entire State of California 
under her watch, except one, attended that training. And she 
was going to make sure that one received all the materials and 
instructions that the others received during their--now that is 
just one option. You know, each State commission--
    Chairwoman Foxx. I am--we are about to run out of time.
    Ms. Spencer. Okay.
    Chairwoman Foxx. And I have one more question. I am going 
to ask you to detail tell me what steps you are taking. So is 
an annual assurance that a grantee is in compliance with 
regulations on prohibited activities currently part of the 
monitoring protocols? And if so, did the National Association 
of Community Health Centers make this assurance? If so, what 
good is the assurance if the grantees and sub-grantees are not 
faithfully adhering to the requirements of the law?
    Ms. Spencer. We will certainly get back to you on that so 
that we can be assured of the correct answer. Absolutely.
    Chairwoman Foxx. Okay, well, thank you very much. Ms. 
Jeffrey, I am going to submit some questions to you afterwards 
related to the Improper Payments Elimination Recovery Act and 
how the agency is not complying with that. And I know you have 
given us some information on this, so I would want to get back 
to you with that, okay?
    Ms. Jeffrey. We look forward to responding.
    Chairwoman Foxx. All right, great. My time has expired and 
I believe all members have had an opportunity to ask their 
questions. Therefore, I would ask Ms. Adams if she is ready to 
make closing remarks?
    Ms. Adams. Thank you, Madam Chair. I am and I want to thank 
both of you for your participation today.
    Since its creation more than 20 years ago, the Corporation 
for National and Community Service has been a strong pillar in 
our community. Across this Nation, CNCS has engaged millions of 
Americans in service. It's AmeriCorps, Senior Corps, Social 
Innovation Fund, and the Volunteer Generation Fund program. 
CNCS has been a leader in alleviating the role of national 
service, which is important to those involved. Madam Chair, I 
have a letter I wanted to submit. I am trying to figure out 
where it is right now. Oh, here it is.
    Chairwoman Foxx. Without objections.
    Ms. Adams. Okay, thank you. So let me just move on to say 
last year, CNCS provided 345,000 volunteers who served over 155 
million hours through AmeriCorps and Senior Corps in more than 
500,000 locations. And it's clear that our continued support is 
absolutely necessary. Tackling issues like literacy and 
homelessness and hunger have been continued priorities for 
CNCS, as well responding to national disasters and helping 
seniors reenter the workforce to improving student academic 
achievement, CNCS is making a real difference and we appreciate 
that.
    But, you know, I guess I didn't come prepared today to hear 
so much about the use of government funds and what appears to 
me to be somewhat attacks on a woman's right to determine what 
to do with their bodies. But CNCS did, from what I hear, what 
they were supposed to do, address the issue at hand, but yet it 
continues to come up in this Congress about women and what we 
ought to do concerning reproductive rights. So while the 
hearing is--was--I did not believe it was supposed to be about 
reproductive rights, I just wanted to just comment that I think 
that we wasted a lot of time with baseless attacks.
    For instance, the Select Panel on the Planned Parenthood 
has been nothing more in my opinion than a political theater. 
But we, my colleagues, have pushed for 21 anti-women's health 
votes, introduced 51 anti-women's health bills, and we have had 
8 anti-women health hearings. And I just think that we need to 
be talking about misuse of some of those funds.
    But again, let me just applaud you for the hard work that 
you have done over the past two decades and I know that what 
you do will continue to engage more citizens and more 
volunteers in a productive way. And I just think that the work 
that CNCS has done and continues to do has made significant 
contributions and I certainly hope that you will continue to do 
that and that we will support those efforts.
    Thank you very much. Madam Chair, I yield back.
    Chairwoman Foxx. Thank you very much. Ms. Adams and I have 
worked together over many years when we were both in the North 
Carolina legislature and I will have to say I very much 
disagree that this is only a hearing about women's reproductive 
rights. This hearing has come about because there is an agency 
in Federal Government that is not being held accountable 
properly in terms of how it spends money in many different 
ways.
    I am home every weekend and I come in contact with 
hardworking citizens who do their jobs and they pay their 
taxes. They volunteer and they do not get paid for it. They are 
true volunteers. And I see those people struggling every day to 
make ends meet and do work in their fire departments as 
volunteers, the Boy Scouts, and Girl Scouts. And they want 
their money spent well. They do not begrudge helping their 
fellow citizens. We are the most generous people in the world. 
But they want their money spent well. And this agency does not 
spend its money well in many cases.
    You mentioned, Ms. Spencer, that you had a $6 million 
reduction over six years. Well, you are just talking to the 
wrong folks because our congressional offices over the past 
eight years have had a 20 percent reduction in the money 
allowed to us to serve a lot of people, over 700,000 people. 
And all of us are struggling very hard to continue the level of 
service that we gave before our funds were cut. So I am sorry, 
that argument does not go very far with this group.
    Your idea of a culture of accountability and mine and Dr. 
Roe's and the folks on our side of the aisle are two very 
different things. You can say you have a culture of 
accountability, but I am sorry to say you have not described 
that very well today in my opinion. If people had worked for me 
who had broken the law, I'd have no tolerance for them 
whatsoever. Zero tolerance. And many members of Congress have 
exhibited that.
    You talk a lot about intentions. We need to be talking 
about metrics and true accountability here. Maybe Dr. Roe and I 
are a little old-fashioned in what we think, but we think you 
ought to be measuring real things. What kind of outcomes are 
you actually getting? What skills are the people in these 
programs truly getting? Do they get any certifications? You 
know, we demand that kind of accountability in certain areas 
and then in other areas where our colleagues want to measure 
only intentions, we don't get that.
    Now, it is true that the law has been broken by people, by 
agencies, and groups you have funded. The law is clear. The 
Federal Government is not going to support abortion services. 
So while this hearing was not about that particular issue, I 
don't think we can close it without making it very clear. You 
seem to have a lack of concern about the violation of the law. 
Your consideration of a no-cost extension is very troubling to 
me.
    We have said it before, I said it at the beginning of the 
hearing, and I am going to say it again, this grant should be 
pulled immediately and under no circumstances should it be 
extended. And I hope we will get back from you a report that 
will fulfill that because when you allow the violation of law 
in whatever category that it is, then we start down a slippery 
slope in this country. We are governed by the rule of law and 
we should all want to uphold that.
    There being no further business, the subcommittee stands 
adjourned.




    [Additional submissions by Ms. Adams follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       
    [Additional submission by Mr. Courtney follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    [Additional submissions by Mr. Scott follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
  
    Link:https://www.nationalservice.gov/sites/default/files/
evidenceexchange/FR--CNCS--
Alumni%20Outcomes%20Survey%20Executive%20Summary.pdf
    [Questions submitted for the record and their responses 
follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Responses to questions submitted for the record follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Extensive material was submitted by Ms. Spencer. The 
submission for the record is in the committee archive for this 
hearing.]
    [Whereupon, at 11:32 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
